                  U.S. DEPARTMENT OF TRANSPORTATION
                      OFFICE OF INSPECTOR GENERAL

               Statement on FAA’s New York TRACON Assessment

                                     June 2, 2005

Earlier this year, both FAA and OIG received a high volume of hotline complaints from
air traffic controllers at the New York (NY) TRACON facility alleging unreported
operational errors. In response to these concerns, as well as a larger set of associated
management and operational issues, it was agreed that FAA would conduct an internal
management assessment and we would review their findings upon completion.

We have received FAA’s report and are reviewing the findings and recommendations,
which address issues ranging from unreported operational errors, alleged overtime pay
abuse, sick leave abuse, and workers’ compensation abuse. These are very serious
issues that we have been reporting on for years, costing taxpayers millions of dollars.
The report also notes that FAA is referring some matters to us for further review and
investigation.

Last year, we found a lack of adequate controls on how operational errors were being
identified, investigated, and reported at TRACONs and towers. We recommended—and
FAA agreed to institute—internal audit procedures to determine whether operational
errors are being fully reported. We recognize that there are varying degrees of the
severity of operational errors and their effect on safety. However, operational errors
remain an important safety measure requiring FAA’s continued attention.

FAA’s assessment of the NY TRACON was an important effort given the number of
long-standing issues between management and labor, and successful implementation of
FAA’s recommendations will require their strong commitment and collaboration.

Given our continuing involvement in these issues, we will monitor and assess the
effectiveness of actions taken to implement FAA’s recommendations. To this end, we
are establishing an on-site presence at the TRACON, for an indeterminate period. Our
on-site presence will enable us to closely review FAA’s progress and facilitate follow-up
reviews and investigations through direct contact between our office and both controllers
and management.
